No.

IN THE
SUPREME COURT OF THE UNITED STATES

BRANDON TANDEMY

PETITIONER
YS.

THE PEOPLE OF THE STATE OF RESPONDENT(S)

COLORADO

PROOF OF SERVICE
I Brandon Tademv

---------------------------- , do swear or declare thatonthis date,
p7 \c>
, 20X1 as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding orthatparty’scounsel, and on every other
person required to be served, by depositing an envelope containingthe above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
TW

The names and addresses of those served are as follows:
United States Supreme Court Clerk
1 First Street, N.E.
Washington, D.C. 20543

Colorado State Attorney General
1525 Sherman, 7* Floor
Denver, CO 80203

I declare under penalty of peijuiy that the foregoing is true and correct.

Brandon Lamar Tademy
49030 Hwy 71
Limon, CO 80826

23

